                              NATIONAL SCIENCE FOUNDATION
                                 4201 WILSON BOULEVARD
                                ARLINGTON, VIRGINIA 22230

    OFFICE OF
INSPECTOR GENERAL




MEMORANDUM

DATE:               MAR 3 1 2008
TO:             Mary F. Santonastasso, Director
                           Institutional and Acquisition Support (DIAS)
                              N .($+dA-
FROM:           Deborah H. Cureton
                Associate Inspector General of Audit

SUBJECT:        NSF OIG Report Number OIG-08-1-007, Audit of Woods Hole
                Oceanographic Institution's FY 2006 Service Center Rates, Costs
                Claimed, and Internal Controls over Compliance in Accordance with
                OMB Circular A-133

In response to the NSF Director's request for audit support, we contracted with the
Defense Contract Audit Agency (DCAA), Boston Branch Office, to perform an audit of
Woods Hole Oceanographic Institution's (WHOI) FY 2006 Service Center Rates, costs
claimed, and compliance with the requirements of OMB Circular A-133. During FY
2006, WHOI incurred a total of $101,659,0 13 in federal awards. Of that amount,
$59,101,853 (or 58%) was incurred under NSF award costs.' WHOI manages and
operates a number of research vessels including the Atlantis 11, the Knorr, and the
Oceanus, and the submersible ALVIN, funded by NSF's Division of Ocean Sciences
(OCE).

The objectives of the audit were to: 1) verify the 40 service center rates which are the
reimbursable cost recovery rates for ship operations, submersibles, and related services
that NSF uses in funding its oceanographic research programs at WHOI; 2) assess
internal control over compliance with requirements described in the OMB Circular A-133
Compliance Supplement that are applicable to WHOI's research and development
program; 3) determine the allowability of direct costs claimed for FY 2006 (January 1,
2006 through December 3 1,2006); and 4) verify that WHOI applied the correct fixed
indirect cost rates to its federal awards. This attached report addresses the first three
audit objectives. Regarding the fourth objective, DCAA has not completed its audit to
determine the accuracy of the fixed indirect cost rates. Upon completion of that review,
the report will be issued to your office.

DCAA performed the audit in accordance with Generally Accepted Government
Auditing Standards.
I
 Although NSF provides the majority of federal hnding at WHOI, DoD (ONR) has retained cognizance
for audits due to its familiarity with auditing the ship operations and related facility rates.
                                                NSF OIG Audit Report No. OIG-08-1-007




Summary of Audit Results

1) Results of Service Center Rate Review

The NSF Director specifically requested an audit of WHOI's ships and submersibles and
and related service center rates. DCAA's audit found the service center rates to be
acceptable as proposed. The claimed service center rates are presented in a schedule on
page 5 of the DCAA report.

During FY 2006, WHOI incurred $20,158,263 to operate its service centers of which,
$15,158,263 (or 77%) was directly attributable to NSF awards. NSF uses the DCAA
audit to establish future rates that WHOI can charge for its service center operations.

2) Results of Review of Internal Control Over Compliance with OMB Circular A-
133

DCAA found that WHOI complied, in all material respects, with the requirements of
OMB Circular A-133, applicable to the Federal awards under the research and
development program for the year ended December 3 1,2006.

3) Results of Review of Direct Costs Claimed

DCAA audited WHOI's incurred direct costs for fiscal year 2006. DCAA did not
question any claimed direct costs associated with the NSF awards; however it questioned
$2,955 of costs associated with non-NSF awards. The audited direct costs for the largest
IYSF grants are shown below.

                                                              Claimed and
               NSF Grants                                      Accepted
               OCE-06110321                                     $1,287,799
               OCE-0504138                                      $1,469,270
               OCE-0504133                                      $5,643,892
               OCE-0513945
                   Total



4) Results of Review of Indirect Costs Claimed

For indirect costs, DCAA only verified that WHOI applied the negotiated indirect rates to
the appropriate bases. DCAA has not completed its audit to determine the accuracy of
WHOI's fixed indirect cost rates. The report will be provided to NSF upon completion.
                                               NSF OIG Audit Report No. OIG-08- 1-007

WHOI agreed with the findings in the DCAA report.

We are providing a copy of this memorandum to the Division Director and Program
Officer of OCE. The responsibility for audit resolution rests with DIAS. Accordingly,
we ask that no action be taken concerning the report's findings without first consulting
DIAS at 703-292-8230.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of
Inspector General:

       Reviewed DCAA's approach and planning of the audit;
       Monitored the progress of the audit at key points;
       Coordinated periodic meetings with DCAA and OIG management to discuss audit
       progress, findings, and recommendations;
       Reviewed the audit report prepared by DCAA to ensure compliance with
       Government Auditing Standards and Office of Management and Budget
       Circulars; and
       Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor's report on WHOI and the conclusions
expressed in the report. NSF-OIG does not express any opinion on internal control over
compliance in accordance with OMB Circular A-133 for the FYE 2006, and on the
allowability of direct costs or the conclusions presented in DCAA's audit report.

We thank you and your staff for the assistance extended to us during the audit. If you
have any questions about this report, please contact Sherrye McGregor at (703) 292-5003
or Jannifer Jenkins at (703) 292-4996.

Attachment: DCAA Audit Report No. 02 171-2006N 10110001, dated September 14,
2007, Report on Woods Hole Oceanographic Institution's Compliance with Requirements
to its Research and Development Program and on Internal Control over Compliance in
Accordance with OMB Circular A-133, Fiscal Year 2006.

cc: Karen Tiplady, Division Director, DGA
    Julie D. Moms, Division Director, OCE
    Linda Goad, Program Director, OCE
